 Department of Health and Human Services
                    OFFICE OF 

               INSPECTOR GENERAL 





 CHICAGO DEPARTMENT OF FAMILY 

  AND SUPPORT SERVICES DID NOT 

ALWAYS CHARGE ALLOWABLE COSTS 

TO THE COMMUNITY SERVICES BLOCK 

 GRANT – RECOVERY ACT PROGRAM


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov. 
                                           




                                                     Sheri L. Fulcher

                                                Regional Inspector General 


                                                        March 2013 

                                                       A-05-11-00083 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY 


BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
provided $1 billion to the Community Services Block Grant (CSBG) program for fiscal years
(FY) 2009 and 2010. As with annually appropriated CSBG funds, Recovery Act funds were to
be used to reduce poverty, revitalize low-income communities, and help low-income Americans.
In addition, CSBG services funded by the Recovery Act were to be provided on or before
September 30, 2010.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families (ACF), Office of Community Services, administers the CSBG program. The CSBG
program funds a State-administered network of more than 1,100 local community action
agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty.

In the State of Illinois, the Department of Commerce and Economic Opportunity, Office of
Community Development (State) was responsible for approving CAAs’ applications for CSBG
Recovery Act funds and monitoring CAAs’ compliance with Federal requirements. Under the
Recovery Act, the State was awarded $47,232,781 in CSBG funds for FYs 2009 and 2010.

The City of Chicago, Department of Family and Support Services (Agency) a unit of local
government under State of Illinois law, provides services to households within the City of
Chicago. The Agency works to promote the well-being of individuals, support families and
strengthen neighborhoods by administering resources to a network of community-based
organizations, social service providers and institutions. For the period May 1, 2009, through
September 30, 2010, the State awarded the Agency $19,444,226 in CSBG Recovery Act funds
(the award). The Agency expended $18,319,312 of the award. The remaining $1,124,914 was
not expended and was returned to the State.

By accepting grant awards, States agree to comply with Federal regulations governing the
administration of the awards, including compliance with various cost principles. The CSBG Act
requires that States receiving CSBG funds ensure that cost and accounting standards of the
Office of Management and Budget apply to a recipient of the funds. Nonprofit CAAs are subject
to 45 CFR part 74. These regulations state that the allowability of costs will be determined in
accordance with 2 CFR part 230, Cost Principles for Non-Profit Organizations. To be allowable
under an award, costs must be reasonable for the performance of the award and allocable to the
award under these principles.

OBJECTIVE

Our objective was to determine whether selected CSBG Recovery Act costs that the State
claimed for the Agency’s program expenditures were allowable under the terms of the Recovery
Act award and applicable Federal requirements.

                                               i
SUMMARY OF FINDINGS

Of the $3,218,569 in CSBG Recovery Act costs that the State claimed on behalf of the Agency
and that we reviewed, $3,026,455 was allowable under the terms of the Recovery Act award and
applicable Federal requirements. The State claimed $40,247 in unallowable costs on behalf of
the Agency, including:

     	 $23,104 in costs that were inadequately documented, and

     	 $17,143 in costs that were incorrectly charged.

In addition, the State claimed $151,867 in costs that may not have been allocable to the Recovery
Act award and thus were potentially unallowable.

The unallowable costs claimed on behalf of the Agency occurred because the Agency did not
follow its policies and procedures requiring that all costs be supported with source
documentation. Furthermore, the Agency did not perform an adequate review of subcontractor
documentation to ensure that costs were correctly charged to the Recovery Act award. The
potentially unallowable costs the State claimed on behalf of the Agency occurred because the
Agency had inadequate monitoring procedures to ensure that costs charged to the Recovery Act
award by subcontractors were properly allocated in compliance with 2 CFR pt. 230.

RECOMMENDATIONS

We recommend that the State:

   	 return to the Federal Government unallowable costs totaling $40,247,

   	 work with the Agency to determine what portion of the $151,867 is allowable and refund
      to the Federal government any amount determined to be unallowable,

   	 ensure that the Agency strengthens its monitoring procedures to ensure that costs charged
      to Federal awards are in compliance with applicable Federal requirements, and

   	 ensure that the Agency follows its policies and procedures regarding the adequate 

      documentation of all costs charged under Federal awards. 


AGENCY COMMENTS

In written comments on our draft report, the Agency partially disagreed with our first
recommendation and concurred with the remaining recommendations.

Regarding our first recommendation, the Agency provided documentation for $3,529 in
administrative costs. In addition, the Agency subsequently provided documentation for the
equipment purchase of $13,850 incurred by a subcontractor. The Agency’s comments are
included as Appendix A.

                                                ii
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing and verifying the additional documentation provided by the Agency, we
accepted the administrative and equipment costs of $3,529 and $13,850, respectively. The
findings in this report have been updated to reflect the acceptance of these supported costs. As a
result, we recommend that the State reimburse $40,247 to the Federal Government.

STATE COMMENTS

In written comments on our draft report, the State concurred with our findings and outlined steps
for implementing our recommendations. The State’s comments are included as Appendix B.




                                                iii
                                                       TABLE OF CONTENTS 



INTRODUCTION.......................... ........ .. .............. ........ .. .............. ........ .. .............. ........ .. .............. 1 

           BACKGROUND ................................................................................................................. 1 

                       The American Recovery and Reinvestment Act ...................................................... l 

                       Community Services Block Grant Program ........................................................... 1 

                       Illinois Department of Commerce and Economic Opportunity .............. .. .............. 1 

                       City of Chicago, Department of Family and Support Services .............. .. .............. 1 


           OBJECTIVE, SCOPE, AND METHODOLOGY .......... ... ..................... ... .......................... 2 

                Objective .................................................................................................................. 2 

                Scope ....................... ........ .. .............. ........ .. .............. ........ .. .............. ........ .. .............. 2 

                M~~~ ...........................................................................................................2 



FINDINGS AND RECOMMENDATIONS ........................... ... ..................... ... ......................... .3 

           UNALLOWABLE COSTS ................................................................................................ .4 

               Federal Requirements ........................................ ... ..................... ... ......................... .4 

               Costs Inadequately Documented ............................................................................ .4 

               Costs Incorrectly Charged ....................... .. .............. ........ .. .............. ........ .. .............. 5 


           POTENTIALLY UNALLOWABLE COSTS ..................................................................... 5 

                Costs Potentially Not Allocable .................................................. ... ......................... 5 


           LACK OF ADEQUATE MONITORING PROCEDURES ........ .. .............. ......... .. .............6 


           RECOMMENDATIONS ........................ ... ..................... ... ..................... ... .......................... 6 


           AGENCY COMMENTS .....................................................................................................6 


           OFFICE OF INSPECTOR GENERAL RESPONSE ..........................................................7 


           STATE COMMENTS .........................................................................................................7 



APPENDIXES

           A: AGENCY COMMENTS

           B: STATE COMMENTS




                                                                           IV
                                      INTRODUCTION 


BACKGROUND

The American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
authorized supplemental appropriations for job preservation and creation, infrastructure
investment, energy efficiency and science, assistance to the unemployed, and State and local
fiscal stabilization. The Recovery Act provided $1 billion to the Community Services Block
Grant (CSBG) program for fiscal years (FY) 2009 and 2010. As with annually appropriated
CSBG funds, Recovery Act funds were to be used to reduce poverty, revitalize low-income
communities, and help low-income Americans. In addition, CSBG services funded by the
Recovery Act were to be provided on or before September 30, 2010.

Community Services Block Grant Program

The CSBG program was reauthorized by the Community Opportunities, Accountability, and
Training and Educational Services Act of 1998, P. L. No. 105-285 (CSBG Act), to provide funds
to alleviate the causes and conditions of poverty in communities. Within the U.S. Department of
Health and Human Services, the Administration for Children and Families (ACF), Office of
Community Services, administers the CSBG program.

The CSBG program funds a State-administered network of more than 1,100 local community
action agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty. Recovery Act award funds were intended
to cover additional costs for the same types of services.

Illinois Department of Commerce and Economic Opportunity

In the State of Illinois, the Department of Commerce and Economic Opportunity, Office of
Community Development (State) was responsible for approving CAAs’ applications for CSBG
Recovery Act funds and monitoring CAAs’ compliance with Federal requirements. Under the
Recovery Act, the State was awarded $47,232,781 in CSBG funds for FYs 2009 and 2010.

City of Chicago, Department of Family and Support Services

The City of Chicago, Department of Family and Support Services (Agency), a unit of local
government under State of Illinois law, provides services to households within the City of
Chicago. The Agency works to promote the independence and well-being of individuals,
support families and strengthen neighborhoods by providing direct assistance and administering
resources to a network of community-based organizations, social service providers, and
institutions. The Agency program listing includes three major program areas: 1) children and
youth services; 2) adult and family services which include community service center division,
homeless and emergency services, domestic violence division and workforce development
division; and 3) senior services. Services that the Agency provides include mentoring, job
readiness training, and senior assistance.
                                               1

For the period May 1, 2009, through September 30, 2010, the State awarded the Agency
$19,444,226 in CSBG Recovery Act funds (the award). The Agency expended $18,319,312 of
the award. The remaining $1,124,914 was not expended and was returned to the State.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected CSBG Recovery Act costs that the State
claimed for the Agency’s program expenditures were allowable under the terms of the Recovery
Act award and applicable Federal requirements.

Scope

We reviewed $3,218,569 of the $18,319,312 claimed by the Agency under its CSBG Recovery
Act award with the State of Illinois for the period of May 1, 2009, through September 30, 2010.
This review is part of a series of audits planned by the Office of Inspector General to provide
oversight of funds provided by the Recovery Act. We did not review the overall internal control
structure of the State or of the Agency. Rather, we reviewed only the internal controls that
pertained to our objective.

We conducted our audit from July 2011 to January 2012 and performed fieldwork at the
Agency’s administrative office, the City of Chicago comptroller’s office and at six subcontractor
locations throughout Chicago, Illinois.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal laws, regulations and guidance;

       reviewed the State’s CSBG ARRA State plan for the period May 1, 2009, through
        September 30, 2010;

       reviewed contractual agreements between the State and Agency for the period May 1,
        2009, through September 30, 2010; 


       reviewed the Agency’s board of directors’ meeting minutes; 


       reviewed the Agency’s accounting policies and procedures; 


       interviewed State officials to gain an understanding of their fiscal and program

        monitoring procedures;

       interviewed Agency officials to gain an understanding of the costs charged under the
        award;

                                                 2

       reviewed the State’s fiscal and program monitoring reports; 


       reviewed correspondence between the State and Agency officials; 


       reviewed the Agency’s audited financial statements for calendar year 2008, 2009, and 

        2010;

       reconciled the costs that the State claimed under the award with the Agency’s general
        ledger;

       analyzed the general ledger and identified all subcontractors related to this award;

       judgmentally selected six subcontractors determined to be high risk, based on dollars
        awarded and monitoring reviews;

       judgmentally selected and reviewed 31 vouchers for six subcontractors, totaling
        $3,203,742 ($649,901 in salary and related costs and $2,553,841 in non-salary costs)
        based on risk factors including whether the vouchers:

            o	 were high dollar;

            o	 were recorded near the end of the award period or outside of the award period; or

            o	 appeared to be disproportionately allocated to the CSBG Recovery Act program;

   	 judgmentally selected and reviewed 3 vouchers for the administrative costs incurred at
      the Agency totaling $14,827 based on the same risk factors noted above; and

    	 discussed findings with the State and Agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                           FINDINGS AND RECOMMENDATIONS

Of the $3,218,569 in CSBG Recovery Act costs that the State claimed on behalf of the Agency
and that we reviewed, $3,026,455 was allowable under the terms of the Recovery Act award and
applicable Federal requirements. The State claimed $40,247 in unallowable costs on behalf of
the Agency, including:

       	 $23,104 in costs that were inadequately documented, and

       	 $17,143 in costs that were incorrectly charged.

                                                 3

In addition, the State claimed $151,867 in costs that may not have been allocable to the Recovery
Act award and thus were potentially unallowable.

The unallowable costs claimed on behalf of the Agency occurred because the Agency did not
follow its policies and procedures requiring that all costs be supported with source
documentation. Furthermore, the Agency did not perform an adequate review of subcontractor
documentation to ensure that costs were correctly charged to the Recovery Act award. The
potentially unallowable costs the State claimed on behalf of the Agency occurred because the
Agency had inadequate monitoring procedures to ensure that costs charged to the Recovery Act
award by subcontractors were properly allocated in compliance with 2 CFR pt. 230.

UNALLOWABLE COSTS

Federal Requirements

Section 678D(a)(l)(B) of the CSBG Act requires that States that receive CSBG funds ensure that
cost and accounting standards of the OMB apply to a recipient of the funds under this subtitle.
As a result, ACF determined that non-profit CAAs' are subject to 45 CFR pt. 74. Federal
regulations (45 CFR § 74.27( a)) state that the allowability of costs for non-profit organizations
will be determined in accordance with 2 CFR pt. 230 (formerly OMB Circular A-I22), Cost
Principles for Non-Profit Organizations.

Pursuant to 2 CFR pt. 230, App. A, A.2.a. and A.2.g., to be allowable under a Federal award,
costs must be reasonable, allocable, and adequately documented.

A cost that benefits both a Federal award and other work is allocable to a Federal award if the
cost can be distributed in reasonable proportion to the benefits received. Any cost allocable to a
particular award or other cost objective may not be shifted to other Federal awards to overcome
funding deficiencies, or to avoid restrictions imposed by law or by terms of the award (2 CFR pt.
230, App. A, A.4).

Pursuant to 2 CFR pt. 230, App. B, 8.m.(l), salary and wage costs should be based on
documented payrolls and the distribution to awards must be supported by personnel activity
reports.

Costs Inadequately Documented

The Agency did not adequately document $23, I 04 1 in costs claimed to the Recovery Act award.
For these costs incurred by subcontractors, neither the Agency nor the subcontractors were able
to provide invoices or receipts to adequately support such costs. For example, supplies were
purchased by a subcontractor which neither the Agency nor the subcontractor could provide an
invoice or receipt. Also, training costs were claimed for the contracted service of a literary coach
to assist the staff in enhancing their writing skills however, the documentation provided was

1 Unsupported costs charged to the Recovery Act award include general liability insurance and utilities ($9,534),
training for staff ($7, 120), supplies ($4,100), and automotive insurance ($2,350).


                                                          4
inadequate to detennine if the service was actually perfonned and which members of the staff
attended the training.

The Agency claimed these unallowable costs to the Recovery Act award because it did not
follow its policies and procedures requiring that all costs be supported with source
documentation. Due to the lack of adequate documentation, we were unable to determine if
these costs were incurred specifically for the purpose of the Recovery Act award, benefitted the
CSBG program, or were necessary for the overall operation of the organization.

Costs Incorrectly Charged

The Agency incorrectly charged $17,143 in costs claimed to the Recovery Act award. Of this
amount, $11,500 was for excess fees related to a subcontractor service contract. The fee for
service contract allowed for a service cost of $3,300 per unit however; the Agency was charged
and provided payment for $3,800 per unit. This $500 overage per unit was applicable to 23
units, totaling $11,500 in additional expense. In discussions with Agency officials, the correct
unit cost was $3,800 per unit; however, it was not fonnalized with a contract modification. The
remaining $5,643 pertains to incorrect charges of costs incurred by subcontractors. For example,
one subcontractor claimed $4,777 in excessive employer FICA charges, while another
subcontractor, who was tax-exempt, claimed $866 in expense related to taxes incurred.

The Agency claimed these unallowable costs to the Recovery Act award because it did not
perfonn an adequate review of subcontractor documentation to ensure that costs were correctly
charged to the Recovery Act award.

POTENTIALLY UNALLOWABLE COSTS

Costs Potentially Not Allocable

The Agency allocated $151,867 in certain costs claimed by subcontractors that may not have
been allocable to the Recovery Act award. Neither the Agency nor the subcontractors were able
to adequately support costs totaling $117,553 2 that were directly charged to the Recovery Act
award. For example, costs incurred by subcontractors such as heating and cooling repairs, utility
bills, and the annual financial review were charged entirely to the Recovery Act award. These
costs benefitted multiple programs while the documentation provided was inadequate to show
that these costs related solely to the Recovery Act award. In addition, the Agency charged
$34,314 in subcontractor salary costs that were allocated to the Recovery Act award based on
incomplete personnel activity reports. The activity reports provided by one subcontractor
reflected the total hours and activities perfonned for each day however, the allocation of time to
the activities worked was incomplete. Without complete and accurate supporting
documentation, we could not detennine whether the subcontractor salary costs were allocable to
the Recovery Act award in reasonable proportion to the benefits received.




2 The Agency directly charged costs that include operating costs ($76,201), professional/technical services
($28,286), materials and supplies ($7,347), equipment ($4,674), and other ($1,045).


                                                          5
The Agency charged these potentially unallowable costs to the Recovery Act award because it
had inadequate monitoring procedures to ensure that costs charged to the Recovery Act award by
subcontractors were properly allocated in compliance with 2 CFR pt. 230. We are deferring the
$151,867 in questionable charges to the State, which should determine the allowable amount and
refund the unallowable amount to the Federal government.

LACK OF ADEQUATE MONITORING PROCEDURES

The State did not have adequate monitoring procedures to ensure that the CSBG Recovery Act
costs claimed for the Agency’s program expenditures were allowable, allocable, and adequately
supported in accordance with terms of the Recovery Act award and applicable Federal
requirements. The State conducted several on-site fiscal reviews at various subcontractor
locations and concluded that the Agency appeared to be in compliance with CSBG ARRA
Federal requirements. However, upon our review, we determined that the Agency was not
always in compliance with the CSBG ARRA Federal and State rules, regulations and policies.
We identified that the Agency claimed costs that were not supported with adequate
documentation as well as costs that were incorrectly charged. In addition, the Agency claimed
potential unallowable costs that were not entirely allocable to the Recovery Act award.

RECOMMENDATIONS

We recommend that the State:

   	 return to the Federal Government unallowable costs totaling $40,247,

   	 work with the Agency to determine what portion of the $151,867 is allowable and refund
      to the Federal government any amount determined to be unallowable,

   	 ensure that the Agency strengthens its monitoring procedures to ensure that costs charged
      to Federal awards are in compliance with applicable Federal requirements, and

   	 ensure that the Agency follows its policies and procedures regarding the adequate 

      documentation of all costs charged under Federal awards. 


AGENCY COMMENTS

In written comments on our draft report, the Agency partially disagreed with our first
recommendation and concurred with the remaining recommendations.

Regarding our first recommendation, the Agency provided documentation for $3,529 in
administrative costs. In addition, the Agency subsequently provided documentation for the
equipment purchase of $13,850 incurred by a subcontractor. The Agency’s comments are
included as Appendix A.




                                                6

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing and verifying the additional documentation provided by the Agency, we
accepted the administrative and equipment costs of $3,529 and $13,850, respectively. The
findings in this report have been updated to reflect the acceptance of these supported costs. As a
result, we recommend that the State reimburse $40,247 to the Federal Government.

STATE COMMENTS

In written comments on our draft report, the State concurred with our findings and outlined steps
for implementing our recommendations. The State’s comments are included as Appendix B.




                                                7

APPENDIXES 

                                                                                                Page 10f2


                        APPENDIX A: AGENCY COMMENTS 





            DEPARTMENT OF FAMILY AND SUPPORT SERVICES
                                  C ITY OF CHICAGO


December 12, 2012

Sheri L. Fulcher
Regional Inspector General for Audit Services
Office of Inspector General
Office of Audit Services, Region V
233 N. Michigan Ave., Suite 1360
Chicago, Illinois 60601

Re: Response to Report Number - A-OS-I1-00083

Dear Ms. Fulcher,

Tbis letter is in response to the draft report dated 12/05/12 regarding the review of the
CSSG-ARRA program by the U.S. Department of Health and Human SeIVices, Office of
Inspector General. The information below addresses the recommendation items noted in
the draft: report

Unallowable costs totaling ($57.626)
Costs Inadequately Documented: Regarding the Department of Family and Support
Services (DFSS) administrative costs ($3,529) for the three outstanding expenditures; the
outstanding invoices for the administrative costs were located and are attached with this
response.

In response to costs incurred by sub-contractors that were not supported by adequate
documentation ($36,954), DFSS will adhere to the recommendation provided and return
the costs for the equipment, general liability insurance, staff training, supplies and
automotive insurance to the State.

Costs Incorrectly Charged: In response to costs incurred by sub-contractors that were not
correctly charged ($17,143), OFSS wit! adhere to the recommendation prOvided and return
the costs to the State.

Costs Potentially Not Allocable ($151,867)
In response to costs that are not potentially allocable to the award, DFSS will work with the
State as well as the two identified subcontractors to confirm and finalize the altowable
costs.
                                                                                                        ,
                                                                                                        I
                 1611'> WEST CHICAOO AVENUE, CHIC A GO, ILL I NOIS 60622

                                                                                                        I!, 

                                                                                                Page 20f2




Sheri L. Fulcher
December 12, 2012
Page 2

DFSS MODitoriDIl Procedures
Delegate agencies are monitored on a regular basis through DFSS' Fiscal Monitoring Unit
(FMU). Monitoring reviews are conducted by taking into consideration various factors,
such as the amount and type of funding an agency receives the length of time since the
previous review and the compliance rating received from the last visit. This process
improvement is now formally documented as DFSS' risk assessment methodology for
conducting fiscal monitoring.

In addition, DFSS will continue to provide technical assistance and training to its delegate
agenCies to ensure they are aware of the fiscal requirements and the importance of
maintaining proper documentallon to support their expenditures. In 2013, DFSS will
provide targeted on-site training for delegate age ncies that have a rating of non·compliance
in key areas of fiscal management.

PESS Policies and Procedures 00 documentation of costs charee<l
DFSS wHl reinfo rce to its delegate agencies that, per the City's current contractual
requirements (see attaChed), adequate supporting documentation (e.g., cancelled checks,
receipts, Invoices, bank statements) for incurred and paid expenditures must be be
maintained and always available for review by the City and/or any funder.

In addition. DFSS along with partnering agencies will continue to conduct random sampling
to confirm that the documentation to support the reimbursed costs are allocable, allowable
and reasonable.

If there are any questions regarding this response, please contact Harold Campbell at (312)
743-493 2.




btl
Kenya Merritt
Deputy Commissioner

cc: 	   Evelyn Dlaz
        Baronica Roberson
        Harold Campbell
                                                                                                        Page 1 of 4


                            APPENDIX B: STATE COMMENTS


                                       illinois
                                       Department of Commerce
                                      & Economic Opportunity
                                      Pat quinn, GOYI!mor




February 13, 2013

Report Number: A-OS·11·00083

Ms. Sheri l. Fulcher 

Regional Inspector General for Audit Services 

U.S. Department of Health & Human Services
Office of Inspector General
233 North Michigan, Suite 1360 

Chicago, IL 60601 



Dear Ms. Fulcher:

This letter is the Department of Commerce and Economic Opportunity's (DCED) response to the
Chicago Department of Family and Support Services Did Not Always Charge Allowable Costs to
the Community Services Block Grant - Recovery Act program report dated January 17, 2013.

The DeED received $47,232,781 In 2009 Recovery Act funding. During the same time period as
the Recovery Act fund s were being spent, DeEO also administered the 2009 and 2010 regular
CSBG program s. It should be noted that the DeEO received no administrative funds to
administer the Recovery Act funds, and was advised to move quickly to obligate and spend
these funds in order to stimulate the economy.

Prior to the awarding of Recovery Act grant funds, the department felt it necessary to meet
with the Community Action Agencies to provide direction and Instruction on the process for
awarding funds, the grant allocation, the need for support documentation, suggested work
programs wi th job creation being the emphaSiS, the importance of preventing duplication of
regular CSBG grant funds, and keeping the Recovery Act funds separate from other funds.

A process similar to the awarding of regular CSBG grant funds was followed with state CSBG
staff reviewing individual Community Action Agency Recovery Act applications and budgets.
The first Recovery Act funds were obligated In May 2009. During the course of the Recovery
Act, several meetings were held to discuss issues and concerns, and again emphasize the
importance of documentation and separation of funds.




                                          www.ildceo.net
       5OOE.OI~                    lOOWtlt RIndoIph St_~ Suite 3-4(1()       23O!1West Mai... Suite 118
 SpringMld.lI~noio62701-1643           Otic.ogo, Or.nai. 60601-3210         Mtrlon.llUnois 62950-11 BO
2171182-1500 . TOO; aoon85-6055     312181+-7170. roo: 8OOI78S-60SS      61111997-43~ ."Ttl0: 8OOI785-605S
                                                                                                  Page 2 of 4




Ms. Fulcher
February 13, 2013
Page 12


Following is DeED's response to the DIG findings although DeED concurs with all of the DIG
findings, and in fact the DeED identified some of the same issues during monitoring.


UNAUOWABLE COSTS

Costs Inadequatelv Documented

The DIG finding states that the OFSS did not adequately document $23,104 in costs for general
liability insurance and utilities, training for staff, supplies and automotive insurance claimed to
the Recovery Act award. The DFSS did not ildequately re view subcontractor documentation to
ensure that costs were correctly charged to the Recovery Act award. The DFSS had Inadequate
monitoring procedures to ensure that costs charged by subcontractors were properly allocated
in compliance with 2 CFR pt. 20.

DCED Response: The DeED is in concurrence with this finding. The DCED will continue to work
with DFSS and all Community Action Agencies to ensure that all applicable federal rules and
regulations speCific to the CSBG grant awa rds are being followed . The DCED will also work
with the DFSS to ensure it is following its own policies and procedures. Because of the size of
the DFSS, DCEO will continue to encourage DFSS to monitor its subcontractors on a regular
basis to ensure costs are being charges correctly, and adequate support documentation is on
file.

Subtotol Unof/owob/e Costs; $23,104

Costs Incorrectly Charged

The DIG finding states that the DFSS incorrectly charged $17,143 in costs for excess fees,
employer FICA charges and expenses related to taKes claimed to the Recovery Act award. The
DFSS claimed these unallowable costs to the Recovery Act award because it did not perform an
adequate review of subcontractor documentation to ensure that costs were correctly charged
to the Recovery Act award.

DCED Response: The DCED Is in concurrence with this finding. The DCEO will continue to work
with DFSS and all Community Action Agencies to ensure that all applicable federal rules and
regulations specific to the ~BG grant awards are being followed . The DCEO will also work
with the DFSS to ensure it Is following its own poliCies and procedures. Because of the size of
the DFSS, DeEO will continue to encourage DFSS to monitor subcontractors on a regular basis
to ensure costs are being charges correctly, and adequate support documentation is on file .
                                                                                                  Page 3 of 4




Ms. Fulcher
February 13, 2013
P a g e 13
Subtotal Unallowable Costs: $17,143

Total Unallowable Costs: $40,147



POTENTIAUY UNAUOWABLE COSTS

Costs Potentially Not Allocable

The DIG finding states that the DFSS allocated $151,867 in certain costs claimed bV
subcontractor5 that may not have been allocable to the Recovery Act award. The DF55 was
unable to provide support documentation, including personnel activity reports, to substantiate
the costs which relate to operating costs, professional/technical services, materials and
supplies, equipment, and other.

DeED Response: The DeEO is in concurrence with this find ing. The DeEO will continue to work
with OFSS and all Community Action Agencies to ensure that all applicable federal rules and
regulations specific to the CSBG grant awards are being followed. The DeEO will also work
with the DFSS to ensure it Is following its own policies and procedures. Because of the size of
the DFSS, DeEO will continue to encourage DFSS to monitor subcontractors on a regular basis
to ensure costs are being charges correctly, and adequate support documentation is on file

Total Unallowable Costs: $151,867



LACK OF ADEQUATE MONITORING PROCEDURES

The orG finding states that the State does not have adequate monitoring procedures to ensure
that the Recovery Act costs claimed for DFSS's program expenditures for direct costs were
allowable. The DeEO does In fact have fiscal monitoring procedures that test expenditures to
ensure they are allowable, necessary, and reasonable.

As stated previously. the DeEO received no administrative funds with which to monitor the
Community Action Agencies' use of the Recovery Act funds. The DCEO used regular CSBG funds
to conduct monitoring of the Recovery Act funds although only 2 to 2.5 days were allocated for
each visit in order to conduct a fiscal review of all 36 Community Action Agencies and one
statewIde migrant organization. With over SO delegate sites, It was impossible for DCEO to
monitor all on-site.
                                                                                                   Page 40f4




Ms. Fulcher
February 13, 2013
Page 14
Since t he first preliminary OIG reports were received, DeEO has stated during meetings with
the Community Action Agencies the issues and concerns identified during the 01G reviews, and
provided instruction on correcting or avoiding the situation. DeED CSBG staff has also updated
monitoring tools to reflect some of the issues identified during the DIG reviews. DeEO wilt
continue to provide training and technical assistance when issues or concerns are Identified.

In conclusion, DeEO believes that based on the this review a total of $192,114 is unallowable
and should be return ed to the U. S. Department of Health and Human Services in unrestricted
funds. Once this report is final, DCED wlll Instruct DFSS to reimburse DCEO with unrestricted
funds so that DCEO can reimburse the U.S. Department of Health and Human Services.


Should you have questions or wish to discuss this response, please feel free to contact Ms. Gail
Hedges at 217/785·1709 or via e-mail at gaiLhedges@illinois.gov.




Acting Director
Illinois Department of Commerce & Economic Opportunity
500 E. Monroe Street
Springfield, IL 62701


Cc: 	   Frankie Atwater, Acting Deputy Director, DCEO
        Gail Hedges, CSSG Program Manager
